rT

C@OCKLE

Le ga | Briefs E-Mail Address;

Est. 1923 contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No.

J.G., by and through his Parents
HOWARD and DENISE GREENBERG,
Petitioners,
v.
STATE OF HAWAII, DEPARTMENT OF EDUCATION,
DENISE GUERIN, personally and in her capacity
as District Education Specialist; and FRANCOISE
WITTENBURG, personally and in her capacity
as Principal of Lokelani Intermediate School,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR A WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the

footnotes, and this brief contains 5305 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 19th day of November, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . ‘
State of Nebraska . LE ,
My Commission Expires Nov 24, 2020 G

Notary Public Affiant

 

38821
